Case: 20-20502

Document: 00515881703

Page: 1

Date Filed: 06/01/2021

®nitEtr States Court of Appeals
for tf)t Jftftfj Ctrtutt
United States Court of Appeals
Fifth Circuit

FILED

No. 20-20502

June 1,2021
Lyle W. Cayce
Clerk

Alexander Ascencio,

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-3286

ORDER:
Alexander Ascencio—convicted in Texas state court of aggravated
sexual assault for repeatedly sexually abusing his daughter, beginning when
she was 11 and ending when she was 13 years old—is currently serving a fiftyfive-year prison sentence. Ascensio applied for a writ of habeas corpus under
28 U.S.C. § 2254, alleging: (1) insufficiency of the evidence; (2) a defect in
his indictment; (3) ineffective assistance of trial counsel; and (4) ineffective
assistance of appellate counsel. The district court denied Ascensio’s
application because his first two claims were procedurally defaulted in the
Texas state courts and his last two claims lacked merit.

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

June 01, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-20502

Ascencio v. Lumpkin
USDC No. 4:19-CV-3286

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
By:
Christina A. Gardner, Deputy Clerk
504-310-7684
Mr. Alexander Ascencio
Ms. Lori Dehise Brodbeck
Mr. Edward Larry Marshall

i

Case: 20-20502

Document: 00515881703

Page: 2

Date Filed: 06/01/2021

No. 20-20502

Ascencio now seeks a certificate of appealability to challenge the
district court’s dismissal. We may issue a certificate of appealability “only if
the applicant has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). This means that for all four of his claims,
Ascencio must “demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong. ” MillerEl v. Cockrell, 537 U.S. 322, 338 (2003). For the claims that were dismissed
as procedurally defaulted, Ascencio must show also “that jurists of reason
would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Ascencio
has not made the required showing as to any of his four claims.
IT IS ORDERED that appellant’s motion for a certificate of
appealability is DENIED.

Is/ Jennifer Walker Elrod
Jennifer Walker Elrod
United States Circuit Judge

2

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page lot 30
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ALEXANDER ASCENCIO,
TDCJ #2052956,
Petitioner,

LORIE DAVIS, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

David J. Bradley, Clerk

§
§
§
§
§

§

VS.

August 13, 2020

CIVIL ACTION NO. H-19-3286

§
§
§
§
§
§

MEMORANDUM AND ORDER
State inmate Alexander Ascencio has filed a petition and supporting
memorandum [Doc. #1], seeking habeas corpus relief under 28 U.S.C. § 2254 from
a conviction that resulted in a sentence of 55 years’ imprisonment in the Texas
Department of Criminal Justice - Correctional Institutions Division (“TDCJ”). The
respondent has answered with a motion for summary judgment [Doc. # 8]. Although
the Court granted him two extensions of time [Docs. #11,# 14], Ascencio has not
filed a response and his time to do so has expired. After reviewing all of the
pleadings, the state court records, and the applicable law, the Court will grant the
respondent’s motion and dismiss this action for the reasons explained below.

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 2 of 30

I.

BACKGROUND
A grand jury in Harris County, Texas, returned an indictment against

Ascencio in Case No. 1302186, charging him with aggravated sexual assault of a
child younger than 14 years of age.1 Ascencio’s defense counsel filed objections to
the form and substance of that indictment, arguing that the charges did not
sufficiently track the statutory language for such an offense as defined under Texas
Penal Code § 22.02l(a)(l)(B)(iii).2

In response to those objections, the State

submitted a revised charging instrument to the grand jury, which returned a new
indictment against Ascencio in Case No. 1487505.3 At a trial on those charges, the
victim (J.C.) testified that Ascencio, who was her biological father, began sexually
abusing her when she was as young as 11 years of age until she finally reported it at
the age of 13.4 A jury in the 209th District Court for Harris County, Texas, found
Ascencio guilty as charged and sentenced him tp 55 years’ imprisonment.5

1
Indictment in Case No. 1302186 [Doc. # 9-12], at 9. For purposes of identification,
all page numbers reference the pagination for each docket entry imprinted by the Court’s
electronic case filing system (ECF).
2
Exception to Substance of the Indictment [Doc. # 9-13], at 56-58; Exception to Form
of the Indictment [Doc. # 9-13], at 59-61.
Indictment in Case No. 1487505 [Doc. # 9-12], at 8.
4

Court Reporter’s Record, vol. 3 [Doc. # 9-16], at 152-78; Court Reporter’s Record,
vol. 4 [Doc. #9-17], at 5-37.
-5-

Judgment of Convictiorfby JuryfDoc. # 9~f3~]7at fit).
2

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 3 of 30

On direct appeal, Ascencio argued that the trial court abused its discretion by
(1) designating a forensic interviewer as an outcry witness under Article 38.072 of
the Texas Code of Criminal Procedure because J.C. told her mother about the abuse
first; and (2) improperly limiting the scope of closing argument by preventing
defense counsel from stating that “an individual juror may form his or her own
definition of proof beyond a reasonable doubt.”6 An intermediate court of appeals
rejected both arguments and affirmed the conviction after setting out the following
' facts based on the evidence presented at trial:
J.C. and her sister and mother, Ursula Canales, moved from El
Salvador to Houston in 2003, when J.C. was six years old. At that time,
J.C. had only had contact with her biological father, Ascencio, by
phone. After spending approximately two years in Houston, Canales
decided in 2005, when J.C. was eight years old, to move to Maryland,
where Ascencio lived.
After living together in Maryland for approximately three years,
in 2008, the family moved from Maryland to Houston. Upon returning
to Houston, Canales worked two jobs that kept her away from home
from 8:00 a.m. to 11:00 p.m. While she was away, Canales would leave
J.C., who was 11 years old at the time, in Ascencio’s care.
J.C. testified that the abuse began when she was in the sixth
grade. Ascencio walked into the room when J.C. was on MySpace, and
saw a picture of J.C. with a boy. Ascencio became angry and started to
hit J.C. J.C. testified that Ascencio’s behavior towards J.C. changed
after that incident. J.C. testified that Ascencio refused to allow J.C.'s
friends or cousins to visit the house, because Ascencio wanted her to be
with him. Ascencio also refused J.C. access to a computer or phone.
J.C. was only allowed to go to church, and only with her parents.

Brief ol Appellant [Doc. #n9c6]7arTT7T97
3

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 4 of 30

J.C. testified that Ascencio first touched her inappropriately
when she was 11 or 12 years old. J.C. testified that the first assault
occurred one morning when J.C. was sleeping and Ascencio came into
her room and got into her bed. J.C. woke up to him touching her breasts
and vagina under her clothes.
The touching continued daily and escalated. After school,
Ascencio would tell her to come to his room and shut the door.
Ascencio would tell J.C. to take off her clothes and get into bed with
him. He would touch her breasts and her vagina with his hands,
sometimes he would put his mouth on J.C.’s vagina, and sometimes he
would put his finger inside J.C.’s vagina.
J.C. testified at trial that Ascencio had the most time alone with
her on Sundays. One Sunday when J.C. was 11 or 12 years old,
Ascencio positioned himself on top of her and tried to penetrate her
vagina with his penis. When J.C. felt Ascencio’s penis against her
vagina, she screamed and tried to move, and Ascencio became angry
and hit her with his fist. Ascencio complained that J.C. “can have sex
with [her boyfriend], why can’t I.” J.C. testified that this assault was
painful and caused her to bleed.
On another Sunday, J.C. falsely told Ascencio that she was on
her period in the hopes that he would not abuse her. But he discovered
the ruse, became angry, and threatened her with a machete, whereupon
J.C. fell to the floor, unable to breathe.
Ascencio assaulted J.C. for the last time in January 2011, when
J.C. was 13 years old and in the eighth grade. Ascencio called J.C. into
his room, made her get into bed, touched her vagina with his penis, and
then tried to penetrate her vagina with his penis.
Shortly after this final assault, Ascencio traveled to Maryland.
While in Maryland, Ascencio called Canales and learned that a nephew
was with Canales and J.C. Ascencio became upset, asked to speak to
J.C. by phone, and then caused J.C. to start crying while on the phone.
Canales testified that she sensed something was wrong, and asked J.C.
whether Ascencio had ever touched her. J.C. cried and told Canales
that Ascencio had “touched her all over,” kissed her, grabbed her, and
-tr-ied-te^>enetr-ate-her-w-ith-his-pen-is----------------------------------------4

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 5 of 30

Canales did not immediately report the abuse to police. But J.C.
did talk to Lisa Holcomb, a forensic interviewer at the Children’s
Assessment Center.
During trial, the court held a hearing outside of the jury’s
presence regarding the testimony of Holcomb, who was the State’s
proposed outcry witness. During the hearing, Holcomb testified that
she interviewed J.C. in April 2011, when J.C. was 13 years old.
Holcomb testified that J.C. told her that Ascencio started to sexually
assault her when they moved into their house in Houston in 2008, when
J.C. was 11 years old. Holcomb testified that J.C. reported that
Ascencio would touch her breasts and vagina. Holcomb also testified
that J.C. told her that Ascencio would try to put his penis inside her
vagina and it hurt.
Holcomb testified that J.C. reported that the last incident
occurred when she was 13 years old in January 2011, when her father
“put his penis on top of her vagina.” Holcomb recounted that J.C. told
her that Ascencio “tried to stick it in, and she felt pain, and he got mad
at her, and hit her, and told her to leave.” Holcomb testified that she
was not aware of J.C. previously informing anyone else of the genital
to genital contact that she had reported to Holcomb. Holcomb testified
that while J.C. told her mother that the abuse was occurring, J.C. did
not tell Canales all of the details that she had told Holcomb and,
specifically, she did not tell Canales about the genital-to-genital
contact.
Canales also testified during the hearing and related the facts that
led J.C. to disclose the abuse. She testified that J.C. told her that
Ascencio had “touched her all over,” kissed her, grabbed her, and tried
to penetrate her. But Canales also testified that J.C. never told her that
Ascencio touched her vagina with his penis.
Following the hearing testimony, Ascencio objected to the
State’s proffer of Holcomb as the outcry witness, arguing that J.C. first
told Canales about the sexual abuse, and, therefore, Canales was the
only proper outcry witness under article 38.071. The trial court
overruled Ascencio’s objection and designated Holcomb as the outcry
witness-:-----------------------------------------------------------------------------5

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 6 of 30

Holcomb then testified, telling the jury the details that J.C.
reported to her during their interview, including J.C’s report of genitalto-genital contact. Canales also testified before the jury. She testified
that J.C. told her that Ascencio had touched her, but did not discuss the
details of the sexual abuse.
Ascencio v. State, No. 01-16-00200-CR, 2017 WL 2255720, at *1-2 (Tex. App.
Houston [1st Dist.] Sept. 27,2017). Thereafter, the Texas Court of Criminal Appeals
refused Ascencio’s petition for discretionary review.
Ascencio challenged his conviction further by filing a state habeas corpus
application under Article 11.07 of the Texas Code of Criminal Procedure, arguing
that he was denied effective assistance of counsel in connection with his trial and
direct appeal.7 Ascencio argued further that the evidence was insufficient to support
his conviction and that his second indictment was “fundamentally defective”
because it violated Due Process and the Double Jeopardy Clause.8 The state habeas
corpus court entered findings of fact and concluded that Ascencio’s challenges to
the sufficiency of the evidence and his indictment were not cognizable on habeas
review and that none of his other claims had merit.9 The Texas Court of Criminal

State Habeas Application [Doc # 9-21], at 12-13.
Id. at 15, 17.
'Findings ofTactamfConclusionsofLaw [Do'cr#'9=23']7at‘5“l-6:
6

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 7 of 30

Appeals agreed and summarily denied relief without a written order on findings
made by the trial court.10
Ascencio now seeks federal habeas relief from his conviction under 28 U.S.C.
§ 2254, raising claims similar to those that were rejected previously on state habeas
corpus review.11 The respondent has filed a motion for summary judgment, noting
that Ascencio’s challenge to the sufficiency of the evidence and his indictment were
rejected on state habeas review for procedural reasons and that those claims are
barred as a result.12 The respondent argues further that Ascencio fails to show that
he is entitled to relief on any of his other claims under the legal standard that governs
federal habeas corpus review.13
II.

STANDARD OF REVIEW
Before a state prisoner can seek federal habeas corpus review he is required

to exhaust remedies by presenting his claims for adjudication in a procedurally

10

Action Taken on Writ No. 89,815-01 [Doc. # 9-20], at 1.

li

Petition [Doc. # 1], at 6-9. The petitioner proceeds pro se in this case. Courts are
required to liberally construe pleadings filed by pro se litigants under a less stringent
standard than those drafted by attorneys. See Haines v. Kerner, 404 U.S. 519, 521 (1972);
see also Hernandez v. Thaler, 630 F.3d 420, 426 (5th Cir. 2011) (“The filings of a federal
habeas petitioner who is proceeding pro se are entitled to the benefit of liberal
construction,” meaning that their submissions “are not held to the same stringent and
rigorous standards as are pleadings filed by lawyers.”) (internal citation marks and
quotation omitted).
12

-H-

Respondent’s Motion for Summary Judgment [Doc. # 8], at 22-24.
~See id. at 8721724^26.
7-

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 8 of 30

proper manner in state court. See 28 U.S.C. § 2254(b); O’Sullivan v. Boerckel, 526
U.S. 838, 844-45 (1999). Claims that have been properly raised and adjudicated on
the merits are subject to the legal standard found in the Anti-terrorism and Effective
Death Penalty Act (“AEDPA”), 28 U.S.C. § 2254(d). Under this standard, a federal
habeas corpus court may not grant relief unless the state court’s adjudication
“resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States[.]” 28 U.S.C. § 2254(d)(1).
“A state court’s decision is deemed contrary to clearly established federal law
if it reaches a legal conclusion in direct conflict with a prior decision of the Supreme
Court or if it reaches a different conclusion than the Supreme Court on materially
indistinguishable facts.” Matamoros v. Stephens, 783 F.3d 212, 215 (5th Cir. 2015)
(citations omitted).

To constitute an “unreasonable application of’ clearly

established federal law, a state court’s holding “must be objectively unreasonable,
not merely wrong; even clear error will not suffice.” Woods v. Donald, 575 U.S. 312,
316 (2015) (citation omitted). “To satisfy this high bar, a habeas petitioner is
required to ‘show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.’”
Woods, 575 U.S. at 316 (quoting Harrington v. Richter, 562 U.S. 86, 103 (2011)).
8

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 9 of 30

/

The standard found in 28 U.S.C. § 2254(d) “imposes a ‘highly deferential
standard for evaluating state-court rulings, . . . [which] ‘demands that state-court
decisions be given the benefit of the doubt.” Renico v. Lett, 559 U.S. 766,773 (2010)
(citations omitted). This standard is intentionally “difficult to meet” because it was
meant to bar relitigation of claims already rejected in state proceedings and to
preserve federal habeas review as “a ‘guard against extreme malfunctions in the state
criminal justice systems,’ not a substitute for ordinary error correction through
appeal.” Richter, 562 U.S. at 102-03 (quoting Jackson v. Virginia, 443 U.S. 307,
332, n.5 (1979) (Stevens, J., concurring)).
A state court’s factual determinations are also entitled to deference on federal
habeas corpus review. Findings of fact are “presumed to be correct” unless the
petitioner rebuts those findings with “clear and convincing evidence.” 28 U.S.C.
§ 2254(e)(1). Where a claim presents a question of fact, a petitioner cannot obtain
federal habeas relief unless he shows that the state court’s denial of relief “was based
on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.” 28 U.S.C. § 2254(d)(2). A federal habeas corpus court
“may not characterize these state-court factual determinations as unreasonable
‘merely because [it] would have reached a different conclusion in the first instance.’”
Brumfield v. Cain, 135 S. Ct. 2269, 2277 (2015) (quoting Wood v. Allen, 558 U.S.

9

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 10 of 30

290, 301,130 S. Ct. 841, 849 (2010)). “Instead, § 2254(d)(2) requires that [a federal
court] accord the state trial court substantial deference.” Id.
III.

DISCUSSION
A.

Sufficiency of the Evidence

Ascencio contends that the evidence was insufficient to support his conviction
for aggravated sexual assault of a child younger than 14 because there was no
“eyewitness” testimony and no “medical evidence” showing that a sexual assault
occurred.14 The respondent notes that Ascencio raised this claim for the first time
on state habeas corpus review, where it was rejected because “[cjhallenges to the
sufficiency of the evidence are not cognizable on habeas [review],” relying on Ex
parte Christian, 760 S.W.2d 659, 660 (Tex. Crim. App. 1988).15 Arguing that
Ascencio failed to raise this claim properly on direct appeal, the respondent
maintains that his challenge to the sufficiency of the evidence must be dismissed as
barred by the doctrine of procedural default.16
Federal habeas review is barred under the doctrine of procedural default if
the last state court to consider the claim clearly based its denial of relief on an
independent and adequate state-law procedural ground. See Coleman v. Thompson,

14

Petition [Doc. # 1], at 8-9.

15

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 11.

1-6-

kespondent's MbfionTorSummary Judgment-[Doc. #~8]7"aT22r23.
10

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 11 of 30

501 U.S. 722, 729-30 (1991); see also Ylst v. Nunnemaker, 501 U.S. 797, 802-04
(1991) (explaining that a federal habeas corpus court looks at the “last reasoned
opinion on the claim” to determine whether a procedural default occurred in state
court). Texas state courts have long held that challenges to the sufficiency of the
evidence should be made on direct appeal and may not be raised in a post-conviction
writ of habeas corpus. See Ex parte Grigsby, 137 S.W.3d 673, 674 (Tex. Crim. App.
2004); see also Ex parte Christian, 760 S.W.2d at 660 (citing Ex parte Ash, 514
S.W.2d 762, 763 (Tex. Crim. App. 1974)). The Fifth Circuit has recognized that
this rule constitutes an independent and adequate state procedural ground that bars
federal habeas review. See Register v. Thaler, 681 F.3d 623, 628 (5th Cir. 2012);
see also Busby v. Dretke, 359 F.3d 708, 718-19 (5th Cir. 2004) (finding it firmly
established by the Texas courts that a challenge to the sufficiency of the evidence
must be raised on direct appeal and is not actionable on state habeas review).
Consequently, Ascencio’s challenge to the sufficiency of the evidence is
procedurally barred from consideration unless an exception applies.
Where a petitioner has committed a procedural default, federal habeas corpus
review is available only if he can demonstrate: (1) “cause for the default and actual
prejudice as a result of the alleged violation of federal law,” or (2) that “failure to
consider the claims will result in a fundamental miscarriage of justice.” Coleman v.
Thompson, 501 U.S. 722, 750 (1991).

To satisfy the exception reserved for
11

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 12 of 30

fundamental miscarriages of justice, a petitioner must provide the court with
evidence that would support a “colorable showing of factual innocence.” Kuhlmann
v. Wilson, All U.S. 436, 454 (1986). Ascencio has not responded to the motion for
summary judgment and the record does not otherwise disclose that any exception
applies.17

Accordingly, his challenge to the sufficiency of the evidence is

procedurally barred from federal review.
Alternatively, the Court concludes that Ascencio’s challenge to the
sufficiency of the evidence is without merit. On habeas corpus review of a state
court conviction, a challenge to the sufficiency of the evidence is governed by
Jackson v. Virginia, 443 U.S. 307 (1979), which reflects the federal constitutional
due process standard. See Woods v. Cockrell, 307 F.3d 353, 358 (5th Cir. 2002).
This standard requires only that a reviewing court determine “whether, after viewing
the evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson, 443 U.S. at 319.

17

The Court notes that ineffective assistance of counsel may, in some circumstances,
constitute cause to excuse a procedural default. See Edwards v. Carpenter, 529 U.S. 446,
451 (2000) (citing Murray v. Carrier, All U.S. 478, 488-89 (1986)). “Not just any
deficiency in counsel’s performance will do, however; the assistance must have been so
ineffective as to violate the Federal Constitution.” Carpenter, 529 U.S. at 451. Although
Ascencio has raised ineffective-assistance claims against his appellate attorney, he does
not establish that he was denied effective assistance in connection with his appeal or that
he has a valid claim. Therefore, his counsel’s performance cannot constitute cause that
-would-excuse-the'procedurai-defaultdn-this-case:-----------------------------------------------12

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 13 of 30

Ascencio was charged with aggravated sexual assault of a child who was
younger than 14 at the time of the offense. In Texas, a person commits aggravated
sexual assault in this context if the accused intentionally or knowingly “causes the
penetration of the anus or sexual organ of a child by any means” or “causes the
sexual organ of a child to contact or penetrate the mouth, anus, or sexual organ of
another person, including the actor,” and the child is younger than fourteen years of
age. Tex. Penal Code § 22.021(a)(1)(B) & (2)(B). As noted above, the victim
testified against Ascencio at trial, describing acts of sexual assault that occurred
when she was under the age of 14.18 Under Texas law, the uncorroborated testimony
of a child victim, standing alone, is sufficient to support a conviction for aggravated
sexual assault. See Paul v. State, Nos. 14-08-00437-CR, 14-08-00439-CR, 2009
WL 2145912, at *2 (Tex. App. —Houston [14th Dist.] July 21,2009, no pet.) (citing
Garcia v. State, 563 S.W.2d 925, 928 (Tex. Crim. App. 1978); Lane v. State, 174
S.W.3d 376, 386 (Tex. App.

Houston [14th Dist.] 2005, pet. refd)). After

viewing the evidence in the light most favorable to the prosecution, a rational trier
of fact could have found the essential elements of the charged offense beyond a
reasonable doubt. Jackson, 443 U.S. at 319. As a result, Ascencio’s challenge to

18

Court Reporter’s Record, vol. 3 [Doc. # 9-16], at 152-78; Court Reporter’s Record,
volHft-Dee^H^rat-S-a?:----------------------------------------------------------------------13

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 14 of 30

the sufficiency of the evidence is without merit and fails to state a claim upon which
habeas relief can be granted.
B.

Challenges to the Indictment

Ascencio contends that the second indictment that was returned against him
in Case No. 1487505, violated the Double Jeopardy Clause and his right to Due
Process because it was sought after the United States Department of Immigration
and Customs Enforcement (“ICE”) imposed a detainer against him and he had turned
down a plea-bargain offer for a 10-year prison sentence.19 Ascencio raised similar
claims on state habeas corpus review,20 which were rejected by the state habeas
corpus court.21 In particular, the state habeas corpus court concluded that Ascencio
“waived” his claims by failing to raise an objection to the indictment before the day
of trial.22
The respondent contends that this claim is procedurally barred from federal
review, noting that the state courts considered Ascencio’s allegations and
determined that review was not available under a state procedural rule announced in

19

Petition [Doc # 1], at 8.

20

State Habeas Application [Doc # 9-21], at 17.

21

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 7.

22

7i7T-(-ekmg-£Lxy2(3rfe-G:i7>5,ort7^O0-SrW-T2d-548-(-:Fex-A5rim—App—1-996)):14

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 15 of 30

Ex parte Gibson, 800 S.W.2d 548 (Tex. Crim. App. 1990).23 According to that rule,
challenges to the validity of an indictment are waived if not made before trial and
may not be raised for the first time on appeal or collateral review. See id. at 551; see
also Tex. Code Crim. Proc. art. 1.14(b) (“If the defendant does not object to a defect,
error, or irregularity of form or substance in an indictment or information before the
date on which the trial on the merits commences, he waives and forfeits the right to
object to the defect, error, or irregularity and he may not raise the objection on appeal
or in any other postconviction proceeding.”).
A procedural default under this clearly established rule has been held adequate
to bar federal habeas corpus review. See, e.g., Avila v. Director, TDCJ-CID, No.
4:16-cv-875, 2019 WL 2881579, at *6 (E.D. Tex. May 8, 2019); Ringer v.
Quarterman, No. 4:07-cv-501, 2009 WL 35059, at *6 (N.D. Tex. Jan. 6, 2009).
Ascencio fails to show that the claims concerning his indictment are not barred by
the doctrine of procedural default or that an exception applies.

Therefore, the

respondent is entitled to summary judgment on this issue. Alternatively, Ascencio’s
claims concerning his indictment are without merit for other reasons raised by the
respondent.24

23

24

Respondent’s Motion for Summary Judgment [Doc. # 8], at 23-24.
-*/r-at-24-26r
15

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 16 of 30

Ascencio contends that his conviction violated the Double Jeopardy Clause,
which provides: “[N]or shall any person be subject for the same offence to be twice
put in jeopardy of life or limb.” U.S. Const, amend. V. This provision, which is
applicable to the states through the Due Process Clause found in the Fourteenth
Amendment, protects against (1) a second prosecution for the same offense after
acquittal; (2) a second prosecution for the same offense after conviction; and (3)
multiple punishments for the same offense. See North Carolina v. Pearce, 395 U.S.
711, 717 (1969) (citations omitted); Ohio v. Johnson, 467 U.S. 493, 489 (1984).
Ascencio, who appears to allege that his second indictment constituted an
impermissible second prosecution, does not establish that a violation of the Double
Jeopardy Clause occurred. As noted above, Ascencio was charged with aggravated
sexual assault of a child younger than 14 in an indictment that was returned against
him initially in Case No. 1302186.25

The State submitted a revised charging

instrument to the grand jury, which returned a new indictment against Ascencio in
Case No. 1487505,26 after Ascencio’s defense counsel filed objections to the form
and substance of the initial indictment because it did not track the language required

.25

Indictment in Case No. 1302186 [Doc. # 9-12], at 9.

26

Indictment in Case No. 1487505 [Doc. # 9-12], at 8.
16

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 17 of 30

to charge an offense under relevant statute.27 The initial indictment in Case No.
1302186 was dismissed before trial on the State’s motion, noting that a new
indictment was returned against Ascencio in Case No. 1487505.28
The Supreme Court has consistently held that a criminal defendant is not
placed in jeopardy for purposes of the Double Jeopardy Clause until the defendant
is “put to trial before the trier of facts, whether the trier be a jury or a judge.” United
States v. Jorn, 400 U.S. 470, 479 (1971) (citations omitted). In a non-jury trial,
jeopardy attaches “when the court begins to hear evidence.” Serfass v. United States,
420 U.S. 377, 388 (1975) (citations omitted). In the case of a jury trial, jeopardy
attaches “when a jury is empaneled and sworn.” Id.; see also Crist v. Bretz, 437 U.S.
28, 35-38 (1978). Because the record confirms that the original prosecution under
the indictment in Case No. 1302186 never proceeded to trial, Ascencio does not
show that jeopardy attached or that his conviction on the charges lodged against him
in Case No. 1487505 violated the Double Jeopardy Clause. Ascencio does not
otherwise show that the State obtained a second indictment against him for any
improper reason related to his immigration status or his decision to reject a plea

27

Exception to Substance of the Indictment [Doc. # 9-13], at 56-58; Exception to Form
of the Indictment [Doc. # 9-13], at 59-61.

■38.

■Qrder-[E)o-cr#-9H-2-]7at^-7T
17

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 18 of 30

bargain. Accordingly, Ascencio is not entitled to relief on any of the claims he
makes concerning his indictment.
C.

Ineffective Assistance of Counsel at Trial

Ascencio contends that his trial attorneys were constitutionally ineffective for
failing to investigate: (1) his original indictment in Case No. 1302186 and its
dismissal; (2) a defense based on his claim that J.C. fabricated her claim after
consulting Internet resources by attempting to get him deported or imprisoned in
retaliation for his discovery that she had “multiple boyfriends”; (3) a potential
witness, Puerto Arturo, who would have substantiated his claim that J.C. concocted
her claims against him; and (4) letters sent to him by J.C.’s mother, stating that she
believed him.29 The state habeas corpus court rejected these claims after considering
affidavits from both of Ascencio’s trial attorneys,30 which the state habeas corpus
court found “credible,” and concluded that he was not denied effective assistance of
counsel under the legal standard found in Strickland v. Washington, 466 U.S. 668
(1984).31

29

Petition [Doc # 1], at 6-7.

30

Affidavit of Jimmy J. Ortiz, Jr. (“Ortiz Affidavit”) [Doc. # 9-23], at 1-3; Affidavit
of Charles Hinton (“Hinton Affidavit”) [Doc. # 9-22], at 40-45.
■3+

findings ofFacramfCcnclusions of Law [Do'C7^'9r23j7art2r~f4:—18

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 19 of 30

As the state habeas corpus court correctly determined, a criminal defendant’s
ineffective-assistance claim is analyzed under the clearly established standard set
forth in Strickland. See Williams v. Taylor, 529 U.S. 362, 390-91 (2000). To prevail
under this two-prong standard, a defendant must demonstrate (1) constitutionally
deficient performance by counsel, and (2) actual prejudice as a result of the alleged
deficiency. See Strickland, 466 U.S. at 687.

“Unless a defendant makes both

showings, it cannot be said that the conviction . . . resulted from a breakdown in the
adversary process that rendered the result unreliable.” Id.
To demonstrate deficient performance, “the defendant must show that
counsel’s representation fell below an objective standard of reasonableness.”
Strickland, 466 U.S. at 688. This is a “highly deferential” inquiry in which “counsel
is strongly presumed to have rendered adequate assistance” and that the challenged
conduct was the product of reasoned trial strategy. Id. at 690. To overcome this
presumption, a defendant must identify the acts or omissions of counsel that are
alleged not to have been the result of reasonable professional judgment.

Id.

However, mere error by counsel, even if professionally unreasonable, does not
warrant setting aside the judgment of a criminal proceeding if the error had no effect*
on the judgment. Id. at 691. “It is only when the lawyer’s errors were so serious
that counsel was not functioning as the ‘counsel’ guaranteed ... by the Sixth

19

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 20 of 30

Amendment that Strickland’s first prong is satisfied.” Buck v. Davis, — U.S. —,
137 S. Ct. 759, 775 (2017) (citation and internal quotation marks omitted).
To satisfy the prejudice prong, “the defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 694. A habeas
petitioner must “affirmatively prove prejudice.” Id. at 693. A petitioner cannot
satisfy the second prong of Strickland with mere speculation and conjecture. See
Bradford v. Whitley, 953 F.2d 1008, 1012 (5th Cir. 1992). Conclusory allegations
are insufficient to demonstrate either deficient performance or actual prejudice. See
Day v. Quarterman, 566 F.3d 527, 540-41 (5th Cir. 2009).
Ascencio’s allegations of ineffective assistance are addressed below under the
doubly deferential Strickland standard that applies on federal habeas review. See
Knowles v. Mirzayance, 556 U.S. Ill, 123 (2009); see also Richter, 562 U.S. at 105
(emphasizing that the standards created by Strickland and § 2254(d) are both “highly
deferential,” and “‘doubly’ so” when applied in tandem) (citations and quotations
omitted).
1.

Failure to Investigate the Indictment

Ascencio contends that his attorneys were deficient for failing to investigate
the reason that his initial indictment in Case No. 1302186 was dismissed or object

20

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 21 of 30

that the second indictment was fundamentally defective.32 Specifically, Ascencio
maintains that his first indictment was dismissed for “questionable” reasons
regarding his immigration status, but that his attorneys failed raise this issue with the
trial court.33 The state habeas corpus court rejected this claim after finding that
Ascencio failed to demonstrate “how his indictment was invalid and fail[ed] to show
that an objection to the indictment by his trial counsel would have been
successful.”34
As discussed previously, the record reflects that the initial indictment against
Ascencio in Case No. 1302186 was dismissed on the State’s motion because a new
indictment was obtained against him in Case No. 1487505.35 The State sought a new
indictment against Ascencio after his defense counsel filed objections to the form
and substance of the initial indictment.36 Ascencio does not show that the second
indictment was obtained for any improper purpose related to his immigration status
and he does not demonstrate that counsel was deficient for failing to investigate or
raise an objection to his second indictment. Because Ascencio does not show that
32

Petition [Doc # 1], at 7, 15.

33

Id.

34

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 8.

35

Order [Doc. # 9-12], at 27.

36

Exception to Substance of the Indictment [Doc. # 9-13], at 56-58; Exception to Form
j-aHHMH-----------------------------------------------21

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 22 of 30

his counsel had a valid objection to make, he fails to show that his counsel was
deficient or that he was prejudiced as a result. See Turner v. Quarterman, 481 F.3d
292, 298 (5th Cir. 2007) (holding that “counsel cannot have rendered ineffective
assistance of counsel by failing to make an objection that would have been
meritless”); Green v. Johnson, 160 F.3d 1029, 1037 (5th Cir. 1998) (“[Fjailure to
make a frivolous objection does not cause counsel’s performance to fall below an
objective level of reasonableness.”). As a result, Ascencio fails to show that the state
court’s decision to reject this claim was unreasonable and he is not entitled to relief
on this claim.
2.

Failure to Investigate Fabrication by the Victim

Ascencio contends that his attorneys were deficient for failing to investigate
his claim that J.C. fabricated her accusations against him after consulting Internet
resources.37 Ascencio maintains that J.C. fabricated the accusations against him in
an attempt to get him deported or imprisoned in retaliation for his discovery that she
had “multiple boyfriends.”38 The state habeas corpus court rejected this claim based
on “credible” affidavits from Ascencio’s trial attorneys, who stated that Ascencio
never discussed as a potential defensive theory his claim that the victim used the

37

Petition [Doc # 1], at 7, 15.

38

-Id,
22

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 23 of 30

Internet to fabricate her allegations.39 As a result, counsel did not believe it was
necessary to investigate such a claim by conducting a search of her home computer.40
Credibility findings, such as those made by the state habeas corpus court with
respect to the affidavits from Ascencio’s defense counsel, are entitled to substantial
deference on federal habeas review. See Coleman v. Quarterman, 456 F.3d 537,
541 (5th Cir. 2006) (citing Guidry v. Dretke, 397 F.3d 306, 326 (5th Cir. 2005)); see
also Kinsel v. Cain, 647 F.3d 265, 270 (5th Cir. 2011) (recognizing that a state
court’s credibility determinations “are entitled to a strong presumption of
correctness” under the AEDPA) (citation omitted). Ascencio does not present any
evidence to rebut the state habeas corpus court’s fact findings and he does not
otherwise demonstrate that an investigation by counsel would have disclosed proof
that the victim used the Internet to fabricate her accusations against him.

Under

these circumstances, he does not demonstrate that counsel was deficient or that the
state court’s decision to reject this claim was unreasonable under the deferential
standard found in 28 U.S.C. § 2254(d). See Miller v. Dretke, 420 F.3d 356, 361 (5th
Cir. 2005) (citing United States v. Green, 882 F.2d 999, 1003 (5th Cir. 1989)) ; see
also Lincecum v. Collins, 958 F.2d 1271,1279 (5th Cir. 1992) (denying habeas relief
where petitioner “offered nothing more than the conclusory allegations in his

39

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 8-9.

40

Jdr

23

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 24 of 30

pleadings” to support claim that counsel was ineffective for failing to investigate and
present evidence). Therefore, he is not entitled to relief on this claim.
3.

Failure to Investigate a Potential Witness

Ascencio contends that his attorneys were deficient for failing to investigate
or interview a potential witness named Puerto Arturo, who would have substantiated
Ascencio’s claim that J.C. fabricated her claims against him.41 The state habeas
corpus court rejected this claim based on the credible affidavits from Ascencio’s trial
counsel, who stated that Ascencio never mentioned that anyone named Puerto Arturo
had pertinent information.42 Therefore, counsel did not find it necessary to interview
this person or call him has a witness 43
The Fifth Circuit has held that complaints of uncalled witnesses are not
favored in federal habeas corpus review “because allegations of what a witness
would have testified are largely speculative.” Coble v. Quarterman, 496 F.3d 430,
436 (5th Cir. 2007) (citations omitted). “Where the only evidence of a missing
witnesses’ testimony is from the defendant, [the Fifth Circuit] views claims of
ineffective assistance with great caution.” Sayre v. Anderson, 238 F.3d 631, 635-36
(5th Cir. 2001) (citations and quotations omitted). To demonstrate the required

41

Petition [Doc # 1], at 7, 15-16.

42

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 9.

43

-Idr

24

\

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 25 of 30

prejudice for an ineffective-assistance claim in this context, a petitioner “must show
not only that [the] testimony would have been favorable, but also that the witness
would have testified at trial.” Evans v. Cockrell, 285 F.3d 370, 377 (5th Cir. 2002).
Ascencio does not present evidence to rebut the state habeas corpus court’s
finding that he did not make his trial attorneys aware of Puerto Arturo as a potential
witness. More importantly, Ascencio does not present a statement from Arturo or
any other information showing that he would have testified favorably for the defense
if called as a witness. His bare allegations are not sufficient to demonstrate deficient
performance or actual prejudice attributable to his trial attorneys. See Sayre, 238
F.3d at 636. Because Ascencio does not show that the state habeas corpus court’s
decision to reject this claim was unreasonable, he is not entitled to relief on this
claim.
4.

Failure to Investigate Letters From the Victim’s Mother

Ascencio contends that his attorneys were deficient for failing to investigate
or present evidence of letters that were sent to Ascencio by J.C.’s mother, Ursala
Canales, stating that she believed him.44 Ascencio appears to claim that the letters
would have shown that Ms. Canales committed perjury at trial and that J.C.’s
accusations were not credible because Canales’s testimony was coerced by threats

44

■Petiti-on-fDee

at-^7—1-6t
25

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 26 of 30

from the prosecutor to deport her and her children if she did not cooperate.45 The
state habeas corpus court rejected this 'claim based on credible affidavits from
defense counsel, who stated that they never received information from Ascencio
about the alleged letters and had no basis to impeach Canales with this information
at trial.46 The state habeas corpus court concluded further that Ascencio did not
prove that his trial attorneys “committed any error” and that he failed to “show any
prejudice from the alleged deficient performance. ”47
The state court record reflects that Ascencio did not submit copies of any
letters that he claimed to have received from J.C.’s mother. Likewise, Ascencio also
has not presented copies of thosedetters in support of his federal habeas petition. His
bare allegations about what those letters said are insufficient to refute the state
habeas corpus court’s findings and conclusions. See Day, 566 F.3d at 540-41.
Accordingly, Ascencio does not demonstrate that the state court’s decision was
unreasonable and, therefore, he is not entitled to relief on this claim.

D.

Ineffective Assistance of Counsel on Appeal

45

Id: at 16.

46

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 10.

47

rM-at-l-l26

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 27 of 30

Ascencio contends that his appellate counsel was deficient because she did
not retain an interpreter to help him communicate with her or allow him to help
prepare the appellate brief.48 As a result, Ascencio claims that his appellate counsel
failed to raise a valid challenge to his indictment for lack ofjurisdiction.49 He claims
further that his appellate attorney failed to challenge the sufficiency of the evidence,
which he describes as a “dead bang winner.”50 The state habeas corpus court rejected
this claim, concluding that Ascencio failed to show that his appellate attorney
“neglected to raise a claim that has indisputable merit under well-settled law” that
would have resulted in reversible error.51 The state habeas corpus court concluded
further that Ascencio failed to show that there was support in the record for his
proposed claims or that his appellate counsel unreasonably failed to raise a particular
claim on his behalf.52
A claim of ineffective assistance on appeal is governed by the two-prong test
set out in Strickland, which requires the defendant to establish both constitutionally
deficient performance and actual prejudice. See Smith v. Murray, 477 U.S. 527, 535-

48

Petition [Doc # 1], at 8, 17.

49

Id. at 17.

50

Id. at 18.

51-

Findings of Fact and Conclusions of Law [Doc. # 9-23], at 11-12.

52

-/<7—at-4-227

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 28 of 30

36 (1986). To establish that counsel’s performance was deficient in the context of
an appeal, the defendant must show that his appellate attorney was objectively
unreasonable in failing to find arguable issues to appeal or “that counsel
unreasonably failed to discover non-ffivolous issues and raise them.” Smith v.
Robbins, 528 U.S. 259, 285 (2000). If the defendant succeeds in such a showing,
then he must establish actual prejudice by demonstrating a “reasonable probability”
that, but for his counsel’s deficient performance, “he would have prevailed on his
appeal.” Id.
Appellate “[cjounsel need not raise every nonfrivolous ground of appeal, but
should instead present solid, meritorious arguments based on directly controlling
/

precedent.” Ries v. Quarterman, 522 F.3d 517, 531-32 (5th Cir. 2008) (internal
quotation marks and citation omitted). For reasons discussed previously, Ascencio
fails to establish that his indictment was defective or that he had a valid challenge to
the sufficiency of the evidence. He does not demonstrate that his appellate counsel
was deficient for failing to retain the services of an interpreter to communicate with
him or that she had, but failed to raise, a valid argument that would have changed
the result of his appeal. Accordingly, Ascencio does not demonstrate that the state
court’s decision to reject this claim was unreasonable and he is not entitled to relief
on this issue. Because Ascencio has not established that he has a valid claim, the

28

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 29 of 30

respondent’s motion for summary judgment will be granted and this action will be
dismissed.
IV.

CERTIFICATE OF APPEALABILITY
Rule 11 of the Rules Governing Section 2254 Cases requires a district court

to issue or deny a certificate of appealability when entering a final order that is
adverse to the petitioner. A certificate of appealability will not issue unless the
petitioner makes “a substantial showing of the denial of a constitutional right,” 28
U.S.C. § 2253(c)(2), which requires a petitioner to demonstrate ‘“that reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.’” Tennard v. Dretke, 542 U.S. 274, 282 (2004) (quoting Slack
v. McDaniel, 529 U.S. 473,484 (2000)). Under the controlling standard, a petitioner
must show “that reasonable jurists could debate whether (or, for that matter, agree
that) the petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further.” Miller-El,
537 U.S. at 336 (internal citation and quotation marks omitted).
After careful review of the pleadings and the applicable law, the Court
concludes that reasonable jurists would not find its assessment of the claims
debatable or wrong. Because the petitioner does not allege facts showing that his
claims could be resolved in a different manner, a certificate of appealability will not
issue in this case.
29

Case 4:19-cv-03286 Document 18 Filed on 08/13/20 in TXSD Page 30 of 30

V.

CONCLUSION AND ORDER
Based on the foregoing, the Court ORDERS as follows:
1. The respondent’s motion for summary judgment [Doc. #8] is
GRANTED.
2. The petition for a writ of habeas corpus filed by Alexander Ascencio
[Doc. # 1] under 28 U.S.C. § 2254 is DENIED and this case is
DISMISSED with prejudice.
3. A certificate of appealability is DENIED.
The Clerk will provide a copy of this order to the parties.
SIGNED at Houston, Texas on

August 13

, 2020.

NANCY F. ATLAS
SENIOR UNITE0 STATES DISTRICT JUDGE

30

Case 4:19-cv-03286 Document 19 Filed on 08/13/20 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

ALEXANDER ASCENCIO,
TDCJ #2052956,
Petitioner,
VS.
LORIE DAVIS, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

August 13, 2020
David J. Bradley, Clerk

CIVIL ACTION NO. H-19-3286

FINAL JUDGMENT
For the reasons set forth in the Court’s Memorandum and Order of even date,
this case is DISMISSED with prejudice.
This is a FINAL JUDGMENT.
The Clerk’s Office will provide a copy of this order to the plaintiff.
SIGNED at Houston, Texas on August 13

, 2020.

NANCY F. ATLAS
SENIOR UNITED STATES DISTRICT JUDGE

